<html>
<title> - MARKUP OF H. RES. 279, H. RES. 303, H.R. 1679, H.R. 151, H.R. 586, H.R. 749, AND H.R. 415</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
MARKUP OF H. RES. 279, H. RES. 303, H.R. 1679, H.R. 151, H.R. 586, H.R. 
                           749, AND H.R. 415 

=======================================================================

                                MEETING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                 HELD IN WASHINGTON, DC, MARCH 25, 2009

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

51-252 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 


















                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              DANIEL E. LUNGREN, California
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
               Victor Arnold-Bik, Minority Staff Director


  MARKUP OF H. RES. 279, COMMITTEE RES. 111-5, DISMISSAL OF ELECTION 
 CONTEST, H. RES. 303, H.R. 1299, H.R. 1679, H.R. 151, H.R. 586, H.R. 
                           749, AND H.R. 415

                              ----------                              


                       WEDNESDAY, MARCH 25, 2009

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:07 a.m., in Room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
(chairman of the committee) presiding.
    Present: Representatives Brady, Lofgren, Capuano, Davis of 
Alabama, Lungren, and McCarthy.
    Staff Present: Liz Birnbaum, Staff Director; Jamie Fleet, 
Deputy Staff Director; Charles Howell, Chief Counsel; Matt 
Pinkus, Professional Staff/Parliamentarian; Kyle Anderson, 
Press Director; Kristin McCowan, Chief Legislative Clerk; Brian 
McCue, Professional Staff; Gregory Abbott, Policy Analyst; 
Khalil Abboud, Professional Staff; Jennifer Daehn, Elections 
Counsel; Victor Arnold-Bik, Minority Staff Director; Peter 
Schalestock, Minority Counsel; and Karin Moore, Minority 
Legislative Counsel.
    The Chairman. Good morning. I would like to call the 
Committee on House Administration to order.
    Before we start, I would like to recognize and welcome 
students from W.T. Woodson High School in Fairfax, Virginia. 
They are seniors that have been studying government and decided 
to observe our hearings today. Welcome all of you, and you all 
look bright-eyed. Are your teachers here with you?
    Voice. No.
    Voice. A chaperone.
    The Chairman. Can you get rid of the chaperone? I used to.
    Thank you all. We applaud your interest and your being here 
today to watch democracy in practice, so to speak. So, again, 
we thank you and appreciate your being here.
    The committee meeting will come to order. We have a number 
of items on the agenda today. First we will consider H. 
Resolution 279, the primary expense resolution to fund the 
standing and select committees of the House for the 111th 
Congress. Every 2 years the committee holds hearings on the 
needs of House committees in the coming Congress. We then write 
a resolution authorizing funding for those committees. During 
our hearings on February 11th and 25th, we heard from all the 
Chairmen and most of the Ranking Members from other committees. 
We are now prepared to act on the committee funding.
    I will now recognize our Ranking Member, Representative 
Lungren, for an opening statement.
    Mr. Lungren. Thank you very much, Mr. Chairman. And I would 
also like to welcome the students here. I would like to begin, 
however, by acknowledging how well the staff on both sides of 
the aisle in this committee have worked through this process. I 
appreciate that very much.
    While we appreciate the access to the committee funding 
information, I know you would agree with me that we believe it 
is crucial for both sides to have as much time as possible to 
review the information and properly scrutinize all the data 
presented to committee members.
    I realize that you got this to us as soon as we had numbers 
that you felt were those that we could go forward with. But I 
would hope in the future, it would be helpful to have more time 
to review all the committee submissions. But considering the 
compressed time frame we have, I appreciate how well both sides 
have worked.
    As I told many of the Chairs and Ranking Members who 
appeared before us, the funding granted for this Congress would 
likely be substantially less than the requests submitted by 
each committee. I understand the genuineness of the request 
made by the Chairs and Ranking Members, but we in this 
committee have an obligation to look at those fairly carefully 
and also look at it in the context of the overall budget 
request from this Congress.
    And just as the American people have had to do more with 
less, we must also stretch the resources available to the 
Congress with a focus on efficiency and by making difficult 
choices on what issues are truly of the highest legislative 
priority.
    So I would like to thank the Chairman for his partnership 
in ensuring that the committee funding request we send to the 
floor will provide adequate funding for the jobs to be done by 
the legislative committees, and yet demonstrates a fiscal 
responsibility in keeping with these difficult economic times.
    I don't think in the numbers that we have had presented to 
us, we are going to restrict any committee from doing the job 
that they need to do; but at the same time, I think we have 
done very careful work in asking the questions and ensuring 
that we can justify the requests that have been made. And, once 
again, I thank the Chairman for his interest and for his 
cooperation on this.
    The Chairman. Thank you. I now would like to call up and 
lay before the Committee House Resolution 279, the primary 
expense resolution for the 111th Congress. Without objection, 
the resolution will be considered as read and open to amendment 
at any point.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I will now offer the Chairman's mark, an 
amendment in the nature of a substitute which is in the 
members' packets. And, without objection, we will disburse with 
the reading of the substitute.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Let me describe what we have done with this 
amendment. Over the last Congress, the committees of the House 
conducted far more hearings and did far more work than in 
recent years. They have done all this without an increase in 
funding. Last Congress we were not even able to keep up with 
inflation. We realize that all the committees have been 
struggling to operate on limited funds, and they will have to 
even work harder to do so in this Congress due to the 
challenging of our economic situations and other legislative 
priorities.
    At the same time, we know that the economic status of the 
Nation means that we must do more with less. So we are not 
going to be able to give the committees all the funds that they 
have requested.
    The amounts stated in the resolution, as introduced: In 
general, the substitute gives each committee for 2009 the lower 
of either the amount they requested or an increase of 4.78 
percent over the funding of 2008. That percent equals the cost-
of-living increase for Federal employees in D.C. for the year 
2009.
    There are a few exceptions to this substitute. First, we 
provided additional funds to the Judiciary Committee to 
undertake its mandatory inquiry into judicial impeachments, 
which is not an ordinary cost of that committee.
    Next, the Energy and Commerce Committee and the Financial 
Services Committee and the Small Businesses Committee each have 
undertaken extra responsibilities in this Congress. These three 
committees will each receive an additional $378,000 above 
inflation in 2009.
    The committee on Standards of Official Conduct will receive 
an increase of $81,000 over the COLA.
    Finally, we have not increased funding over the 2008 for 
the Oversight and Government Reform Committee, since we have 
already expanded the oversight work of all committees in this 
Congress by amending the rule in H. Res. 40.
    We add it all up, that keeps the total committee funding 
for 2009 at just 4.78 over the total funding from 2008. In 2010 
the committee will receive an across-the-board increase of 3.9, 
which is our estimate of the inflationary increase needed to 
keep staff paid in the coming year.
    I would like to make one observation as it relates to how 
the Minority funds their operation. I strongly support the two-
thirds/one-third principle. As the Congress continues working, 
I want the Minority to come to me with any instances at all 
where they have not been treated fairly, where the two-thirds/
one-third doctrine has been violated. And I promise to our 
members on both sides that I will work with those committees to 
bring the parties together and make sure that the Minority is 
never disadvantaged in performing their work. After all, we are 
in the Majority today; we may not be in the Majority tomorrow. 
So I am not only carrying the flag for the Minority, but I am 
carrying the flag for the Majority at one point in time, too.
    Is there any debate on the substitute?
    Mr. Lungren. Mr. Chairman.
    The Chairman. I recognize Mr. Lungren.
    Mr. Lungren. I would move to strike the requisite number of 
words. First of all, I want to thank you for the comment on the 
one-third/two-thirds. While I would have preferred that we have 
that actually in the resolution, I appreciate the Chairman's 
commitment to the one-third/two-thirds split.
    This I think worked well when we were in the Majority. I 
think it works well when we are in the Minority. I think it 
gives a certainty out there and it does allow the Minority to 
have sufficient staff so that they can carry out their 
responsibilities.
    I recall when there were times when that was not the case. 
And so for our committee being the committee that authorizes 
the budgets for the various committees of the House, I think 
this is a very important matter.
    Secondly, there might be some press reports about what the 
increases are, that they total 8.67 percent. But remember, that 
is over the 2-year period of time. The Chairman has articulated 
what it is for the first year and then for the second year.
    The amount requested additional for the Standards 
Committee, otherwise known as the Ethics Committee, I hope it 
is sufficient for them to do their job. In the last Congress, 
the only committee that I questioned in terms of the adequacy 
of their budget was the Ethics Committee. The request that we 
have had as of this morning for the additional--I think it was 
$87,000--I think is appropriate. I hope it is what is 
necessary.
    I would just say on that that we have an obligation not 
only to act ethically, but to make sure the American people 
understand, with that degree of transparency, that we are doing 
that. When we have a situation that we don't fund the Ethics 
Committee sufficiently so that, for instance, questions about 
financial disclosures which were filed last year, almost a full 
year ago, have not yet been answered. That is not a criticism 
of the committee; it is an observation over our failure to 
fully fund that committee.
    So, Mr. Chairman, I would just say on the only committee I 
would say this about: If there, in fact, is insufficient funds 
to do the job that they must carry out, I hope we will be open 
to immediately responding to that to ensure that that job is 
done. And with that, I----
    Ms. Lofgren. Would the gentleman yield?
    Mr. Lungren. I would be happy to yield.
    Ms. Lofgren. I would like to briefly address and thank the 
gentleman for his support. Jo Bonner, the Ranking Member and I, 
I think we talked about five times a day and worked carefully 
to put together this proposal, we believe based on the work 
that we have done that this is going to be sufficient. If not, 
we will certainly come back.
    But in the last several Congresses, the budgeted amount for 
the committee was actually not expended. There are a number of 
vacancies that we are working very hard to fill, and we think 
that the funds here, plus the expenditure of what was already 
appropriated is going to provide us what we need.
    And certainly there are some rebuilding efforts necessary, 
and we are actively engaged in that process. And I thank you.
    Mr. Lungren. I thank you for that. I will just say overall, 
I am pleased that this committee was able to bring down the 
requests that were made by all the committees, and we have come 
up with a measurable decrease in the expected or the requested 
increases from the various committees. The only exception I 
make is with respect to the Committee on Ethics because of the 
role it plays in this House and the importance of ethical 
issues right now before us. And with that, I yield back.
    The Chairman. Mr. McCarthy.
    Mr. McCarthy. Mr. Chairman, my only one--I guess I phrase 
it as a question. When I go through these numbers and, one, I 
echo what Mr. Lungren said, I am glad we are able to move the 
percentage increase down from what everybody was requesting. 
But one that stands out is Oversight and Government Reform. It 
gets 3.43 percent over 2 years, which I think is great, maybe 
everyone could have got to that place. But this year it gets 
zero. And looking at where this world has changed about 
transparency, looking at what has transpired just in the last 
couple of weeks about things that are being uncovered, I am 
just wondering why; and do they feel it is adequate, and 
knowing that we want greater government transparency, that they 
are zero this year?
    The Chairman. Naturally they do not feel that it is 
adequate. But after reviewing it, and looking at it and 
speaking with all pertinent parties, they felt that they could, 
without question, function in the right and proper manner 
without an increase. Because they have been increased for years 
on end. I understand, but I am not real sure that they have 
maybe given back money in the past. And with the new rule that 
we now have that everybody has regular oversight, that will 
probably take care of some of our own internals for every 
committee that has to come in front of us or send a report for 
all their oversight. So we take some responsibilities from 
them. That was the thought process of that.
    Mr. McCarthy. Well, I appreciate that, Mr. Chairman. The 
only thing I see in history, I have one that goes back to the 
106th. They were actually decreased in the 106th and 107th, by 
1 percent. Others were increased. In the world of transparency 
as we look forward if they are to come back, that we are not 
able to look at ways, especially with the TARP and other things 
transpiring, this may be a role, especially under their 
jurisdiction, to be able to look at certain things that we 
hadn't thought of in the past.
    The Chairman. If that would happened? I think that we are 
going to address that in an amendment that Mr. Lungren will be 
offering.
    I now recognize Mr. Lungren to offer amendment.
    Mr. Lungren. I have an amendment at the desk.
    The Chairman. Without objection, the amendment to the 
amendment in the nature of a substitute is considered to be 
read.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. And I recognize Mr. Lungren.
    Mr. Lungren. I thank the Chairman very much. And this I 
think goes to the question that the gentleman had. When we had 
the hearings with the Ranking Members and the Chairpersons, I 
asked each and every one of them whether or not they would 
agree to cooperate with us in coming back after a year for us 
to look at that.
    Additionally, we have in our working with the Majority 
side, I think, come up with a stronger template of reports that 
all the committees are required to lodge once a month, and that 
will be available electronically for people to see, so that the 
members can make a judgment as to whether or not the committees 
are engaged in vigorous oversight, as they are required to do 
under the rules.
    And then at the end of the year, the purpose of my 
amendment is to specifically say that they will come back to 
report to us, so that we will have the regular monthly reports 
that will be available to all. And then at the end of the year, 
they will come back and we can review it here.
    The Chairman was supportive in our questioning of the 
members of the committees as they came before us. And I believe 
that if we adopt this amendment it will be a model of the 
transparency that we are trying to get from both sides of the 
aisle, and both sides of the Capitol, to help us as we go 
forward. That is basically what my amendment is and with that I 
yield back to the Chairman.
    The Chairman. Any other debate on the amendment?
    I support the amendment offered by Mr. Lungren. During our 
2 days of funding hearings, we were pleased that all the Chairs 
and all the Ranking Members agreed to come back. Agreeing to 
coming back and coming back sometimes can be two different 
things. And I also thought it was a good idea that this 
solidifies the effort. And I urge the committee to support it, 
to bring our Chairmen and our Ranking Members to come back just 
to address the issue that Mr. McCarthy raised, that if there is 
a slack somewhere--I am sure we can find funding for our own 
committee--that may not be able to function because of that. I 
urge our colleagues to support the amendment.
    Any other comments? So the question is on the amendment 
offered by Mr. Lungren to the amendment in the nature of a 
substitute.
    All those in favor signify by saying ``aye.''
    All opposed, ``no.''
    The ``ayes'' have it, and the amendment to the amendment in 
the nature of a substitute is agreed to.
    No roll call is needed.
    Mr. Lungren. Mr. Chairman, could I ask you to enter into 
colloquy on the issue that I mentioned before about public 
disclosure of monthly committee reports?
    The Chairman. Yes.
    Mr. Lungren. I thank the Chairman for his indulgence. As 
the Chairman is aware, one of the requirements we have in the 
committee's handbook is that, ``Each committee must submit to 
the Committee on House Administration by the 18th of each month 
an original and two copies of a report signed by the committee 
Chair on the activities of the committee during the preceding 
month.''
    Some of the items required in the monthly report include 
progress on specific investigations, statement of expenses, 
report of travel, as well as staff salaries. In addition, the 
monthly report of each committee, they are currently required 
to be available for public inspection. One of the items in our 
committee rules, rule 4(e) as we adopted, states: To the 
maximum extent feasible, the committee shall make its 
publications available in electronic form.
    Given our committee's commitment to transparency and 
accountability, would the Chairman be willing to work with me 
in order to make those monthly reports available on our 
committee Web site?
    The Chairman. Yes, without question.
    Mr. Lungren. Thank you very much.
    The Chairman. You are welcome.
    Are there any additional amendments?
    Without objection, the previous question is ordered on the 
amendment in the nature of a substitute, as amended.
    The question is on the amendment. All in favor say ``aye.''
    ``No,'' opposed.
    The ``ayes'' have it. And the amendment in the nature of a 
substitute is agreed to.
    The amendment is agreed to.
    Now, I move that the Committee report H.R. 279 favorably to 
the House with an amendment. The question is on the motion.
    All in favor say ``aye.''
    Any opposed?
    The ``ayes'' have it and the motion is agreed to.
    The Chair would announce that he is asking for 2 additional 
calendar days provided by clause 2 of rule 11 to allow members 
time to file additional Reviews. The Chair notices that the 
gentleman will exercise his right for those 2 additional days.
    Mr. Lungren. Thank you very much.
    The Chairman. Without objection.
    The next item on the agenda is the committee funding 
resolution. I now call up Committee Resolution 111-5 providing 
the allocation of official mail allowance to committees of the 
House for the 111th Congress. This resolution is limited to 
$5,000 per year for each committee's mail.
    Without objection, the committee resolution is considered 
as read and open for amendment.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Is there any debate?
    Are there any amendments?
    If not, the question is on agreeing to the committee 
resolution.
    All those in favor say ``aye.''
    All those opposed, no.
    In the opinion of the Chair the ``ayes'' have it and the 
Committee Resolution 111-5 is agreed to. Without objection, the 
motion to reconsider is laid upon the table.
    I now call up an original resolution relating to an 
election contest in the First Congressional District of Hawaii. 
The text of the resolution is before the members and I ask 
unanimous consent to dispose with the reading. And, without 
objection, it is so ordered.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I now recognize Vice Chair Lofgren for a 
statement.
    Ms. Lofgren. Mr. Chairman, there has been bipartisan 
agreement that this election contest relating to the First 
Congressional District of Hawaii is completely frivolous. It 
should by dismissed without consuming any additional time of 
the committee. And unless there is further comment, I would 
move that the committee favorably report to the House an 
original resolution, the text of which is before the members, 
to dismiss the election contest in the First Congressional 
District of Hawaii.
    The Chairman. Is there any additional debate?
    Mr. Lungren. We agree.
    The Chairman. We agree.
    If there is no further debate, without objection, the 
previous question is ordered. I recognize again Vice Chairman 
Lofgren for the purpose of making a motion.
    Ms. Lofgren. I just made the motion.
    The Chairman. You made a motion?
    Ms. Lofgren. Yes.
    The Chairman. The committee favorably report the House's 
original resolution, the text of which is before the members, 
to dismiss the election contest in the First Congressional of 
Hawaii.
    The question on the motion offered by the Vice Chair, all 
those in favor say ``aye.''
    Any opposed, ``no.''
    The ``ayes'' have it. The motion is agreed to, without 
objection. A motion to consider is laid upon the table and the 
resolution will be reported to the House.
    Without objection, the staff will be authorized to make 
technical and conforming changes to the resolution.
    The committee now will turn to markup of H.R. 1299, the 
Capitol Police Administrative Technical Corrections Act of 
2009, which the House passed essentially the same bill last 
year.
    As its title suggests, H.R. 1299 does not make substantive 
policy changes for the Capitol Police; rather, it corrects 
drafting errors, modernizes outdated terms and repeals 
inconsistent provisions now on the books. Chief Morse formally 
requested both of these corrections, and the committee staff 
found a few others.
    I urge the committee support the bill once again. And would 
the gentleman from California like to make a statement?
    Mr. Lungren. Mr. Chairman, we have examined the bill and we 
agree this is technical in nature. It does not make substantive 
changes and it corrects a number of things that were oversights 
or drafting errors, and we would agree with the Chairman's 
position that this be supported.
    The Chairman. I thank the gentleman.
    I now call--any other comments?
    I now call up and lay before the committee H.R. 1299. 
Without objection, the first reading of the bill is dispensed 
with and the bill is considered as read, and open for an 
amendment at any point.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Is there any debate? Are there any 
amendments?
    If not, I move to report H.R. 1299 favorably to the House. 
The question is on the motion.
    All those in favor say ``aye.''
    Any opposed?
    In the opinion of the Chair the ``ayes'' have it. And the 
bill will be reported to the House. Without objection, the 
motion to reconsider is laid upon the table.
    The next item the committee will take up is H.R. 1679, the 
House Reservist Pay Adjustment Act of 2009. This bill will 
replace lost income from military reservists working for the 
House of Representatives when they are active for more than 30 
days.
    I introduced this important bill after discussion with 
several House employees who also serve as members of the armed 
service. When they are called up, these men and women must 
leave homes, families and jobs, often for an undetermined, 
unpredictable amount of time.
    We know that many leading companies have helped reservists 
and their families by continuing to pay the difference between 
their usual salary and their Active Duty pay. This bill would 
do the same for the House employees. It requires the CAO to 
provide that supplement for House employees, if and when they 
are activated involuntarily.
    I am pleased that Ms. Davis and the Republican members of 
the committee have joined me in sponsoring this legislation. 
And I now would like to recognize, again, our Ranking Member, 
Mr. Lungren, for any statement.
    Mr. Lungren. Thank you very much, Mr. Chairman. I 
congratulate you for bringing this forward. This is a concept 
that we have suggested as an example of what should be done in 
the private sector, if they can afford to do so. And that is, 
you have men and women who are called up to Active Duty for 
more than 30 days. They have a drastic reduction in pay 
relative to what they are earning in many cases. It puts a 
tremendous burden on them and their families. And it just seems 
that we who encourage this in a private sector, where they can 
afford it, ought to be leaders and do it ourselves.
    I thank the gentleman for introducing it and I am happy to 
join him in sponsoring it and hope that we can have expeditious 
consideration by the full House.
    The Chairman. Thank you, I thank the gentleman.
    I now call up and lay before the committee H.R. 1679. 
Without objection, the first reading of the bill is dispensed 
with and the bill is considered as read and open for amendment 
at any point.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Is there any debate? Are there any 
amendments?
    If not, I now move to report H.R. 1679 favorably to the 
House. The question is on the motion.
    All those in favor signify by saying ``aye.''
    Any opposed?
    In the opinion of the Chair the ``ayes'' have it. And the 
bill will be reported to the House, without objection. The 
motion is reconsidered and laid upon the table.
    The next item on the agenda is H.R. 151, the Daniel Webster 
Congressional Clerkship Act of 2009. This bill was introduced 
by Vice Chair Lofgren and sponsored by Ranking Member Lungren.
    H.R. 151 establishes the Daniel Webster Congressional 
Clerkship Program. Similar programs can be found at the White 
House and the United States courts.
    I would now like to recognize the bill's sponsor, Ms. 
Lofgren, for a statement on the bill.
    Ms. Lofgren. Mr. Chairman, I will be brief since I am 
required to go to the Speaker's Office in 2 minutes.
    Mr. Lungren. Is that like going to the principal's office?
    Ms. Lofgren. It kind of is.
    The Chairman. The woodshed. They can appreciate that.
    Ms. Lofgren. This bill was approved by the House last year. 
It is an important measure that Mr. Lungren and I have worked 
on very satisfactorily. Really, the brain child of the Stanford 
Law dean, actually. I want to give him credit. And it would 
really elevate the legislative branch in the same way the 
executive and judicial branch have the top lawyers in the 
United States in these clerkships. We think it will strengthen 
the legislative branch, and I really hope that we can move this 
through the Senate this year, promptly through the House and 
then through the Senate, so that we can accomplish this.
    CRS is not included in this at the current time. I think we 
can agree we can look at that down the road, and so we will 
make that public commitment to review it later. But I think at 
this point, I don't want to speak for Mr. Lungren, I think we 
are both pretty satisfied with the way this bill is. And I 
thank the gentleman.
    The Chairman. I thank the lady. Mr. Lungren.
    Mr. Lungren. Mr. Chairman, this bill is important for one 
very important reason. Now, in law school, if you are one of 
the more talented law students, one of the goals is to get a 
clerkship either with a court or with an executive branch. More 
for the courts than the executive branch. What that does is 
some of these outstanding students then go on to be outstanding 
members of the bar, but oftentimes become judges themselves. 
And if they have been trained their whole time that the end-all 
and be-all of the government is the judicial branch, and that 
they have the only determination of what is constitutional or 
not, they don't have a full appreciation for the coequal status 
of the legislative branch.
    And the interesting thing is this was brought to our 
attention by the dean of Stanford Law school, who you would 
think would like the way things are now. He noted that he sees 
this with his students and those who graduate. So this is a 
small effort to try and inculcate in students in law school 
that the legislative branch under the Constitution is a coequal 
branch with the others, and that here we have as much an 
obligation to uphold the Constitution in the manner that we 
carry out our responsibilities as does the judicial branch.
    It is a minimal amount of money when you really compare it 
to the overall cost of government. And it is our hope to begin 
an appreciation for the legislative branch in the ranks of law 
schools around the country. And I thank the Chairman.
    The Chairman. I thank the gentleman.
    I now call up and lay before the committee H.R. 151. 
Without objection, the first reading of the bill is dispensed 
with and the bill is considered as read and open for an 
amendment at any time.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Any amendments?
    If not, I move to report H.R. 151 favorably to the House. 
The question is on the motion.
    All those in favor signify by saying ``aye.''
    Any opposed?
    The ``ayes'' have it. And the bill will be reported to the 
House, without objection. The motion to reconsider is laid upon 
the table.
    Our next item for the committee is an important bill H.R. 
586, Civil Rights History Project Act of 2009, introduced by 
Mrs. McCarthy of New York and Mr. Lewis of Georgia.
    The civil rights history project is an important step 
toward recording the history of an important era. Gathering 
firsthand accounts from those citizens who fearlessly fought 
for equal rights will lend a unique perspective to what we have 
already known about the civil rights movement.
    Building on the success of the veterans history project, 
the civil rights history project will aim to highlight the 
efforts of those activists who otherwise go unacknowledged. 
While Martin Luther King, Jr. and Rosa Parks and our own 
colleague, John Lewis, and some of the most well-known figures 
in the civil rights movement and countless others were equally 
instrumental in securing fair and equal treatment for African 
Americans. This project will tell that story.
    I would like to recognize Mr. Lungren for any remarks.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lungren. Thank you, Mr. Chairman. I support this bill, 
having had the opportunity, along with Mr. Davis and others, to 
take the pilgrimage of civil rights down to Alabama just 2 
weeks ago and having had the opportunity to listen to some of 
the still-living legends of the civil rights movement. And 
understanding as you talk with them that they are only going to 
be with us a few more years, because of their age, it is 
important to have this project done as soon as possible.
    And I strongly support it and I thank the gentleman for the 
time.
    The Chairman. Thank you. Are there any amendments? Any 
other comments?
    If not, I will move to report H.R. 586 favorably to the 
House.
    The question is on the motion. All in favor signify by 
saying ``aye.''
    Any opposed, ``no.''
    The ``ayes'' have it and the bill will be reported to the 
House. Without objection, the motion to reconsider is on the 
table.
    Next we take up consideration of H.R. 749, a bill to amend 
the Federal Elections Campaign Act to permit a candidate for 
Federal office to designate someone to distribute the funds of 
that candidate's campaign in the event of the candidate's 
death.
    H.R. 749 will help to assure candidates for Federal office 
that the funds raised by their campaigns will be dispersed in 
accordance with their expressed wishes after they are deceased. 
The bill will not otherwise amend the terms and conditions of 
the disbursement of the funds under the act.
    Last Congress this committee reported this bill favorably 
and it passed the House. As introduced in the 111th Congress, 
H.R. 749 includes the amendments that were adopted by the 
committee during the last Congress.
    I would now like to recognize our Ranking Member Mr. 
Lungren.
    Mr. Lungren. I thank the Chairman for bringing this 
forward. As you know, our colleague from North Carolina, Walter 
Jones, has spoken to both of us on this. Out of a personal 
experience with the death of his father, a former Member, when 
learning that the disbursement of the funds that existed at the 
time of his death would be at the direction of the campaign 
treasurer, he saw that this would not have been in accordance 
with the wishes of his late father.
    And so all this does is give a Member an opportunity to 
think ahead of time that, in the event of death and there are 
funds available, that a person he would designate, most likely 
a member of his family, a spouse or a surviving member of the 
family, would designate those funds presumably to the 
charitable institutions that he would have an interest in, 
which may not be in accordance with the wishes of the 
treasurer, because oftentimes we know we hire treasurers, we 
have them concentrating on the campaign. Very simple, very 
straightforward.
    I thank the Chairman for bringing this up so expeditiously.
    The Chairman. Thank you. Any other comments?
    I now would like to call up and lay before the committee 
H.R. 749. Without objection, the first reading of the bill is 
dispensed with and the bill is considered as read and open for 
amendment at any point.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Is there any debate?
    I would like to quickly echo the comments of the Ranking 
Member. A lot of times, mainly for appearances, we do like to 
find an attorney, no disrespect, or an accountant, no 
disrespect, and we don't want to find a member of the family 
who knows about our wishes much, much better than anyone that 
we would have as our treasurer.
    So all this bill does is, again, at the time of a death of 
a candidate or somebody who is a Member of Congress, that the 
campaign funds that they have would be able to go to the 
designee, a member of the family who best knows their wishes 
than anybody else. So I do agree and hope that this bill 
passes.
    I now move to report H.R. 749 favorably to the House. The 
question is on the motion.
    All those in favor signify by saying ``aye.''
    Any opposed, ``no.''
    The ``ayes'' have it and the bill is reported to the House, 
without objection. The motion to reconsider is laid upon the 
table.
    Finally, the committee will consider H.R. 415, the Fallen 
Heroes Flag Act of 2009, introduced by Mr. King of New York. 
The bill would authorize Members of Congress to give flags 
flown over the Capitol to the families of firefighters, police 
officers and other rescue workers whose lives are lost in the 
line of duty. The flags would be accompanied by a certificate 
signed by the Speaker and the Member, expressing the 
condolences of the House.
    I would now like to recognize Ranking Member Lungren for 
any remarks.
    Mr. Lungren. The Chairman adequately described this. I 
support it and I thank Mr. King for introducing it, and I thank 
the Chairman for expeditiously considering it.
    The Chairman. Thank you. I now call up and lay before the 
committee H.R. 415. Without objection, the first reading of the 
bill is dispensed with and the bill is considered as read and 
open for amendments at any point.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Are there any amendments?
    If not, I move to report H.R. 415 favorably to the House. 
The question is on the motion.
    All in favor signify by saying ``aye.''
    All opposed, ``no.''
    The ``ayes'' have it and the bill will be reported to the 
House, without objection. The motion to reconsider is laid upon 
the table.
    Without objection, staff is authorized to make technical 
and conforming changes to the various measures considered by 
the committee today.
    I thank all of you for your participation, and I understand 
we have a vote in about 5 minutes and we will be able to make 
that. Thank you all and I now adjourn the committee.
    [Whereupon, at 11:39 a.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
